     DON’T BE AFRAID. SPEAK UP.




                             WHAT IS A WHISTLEBLOWER?
A “whistleblower” discloses information he/she reasonably believes evidences any of the
 following: A violation of any law, rule, or regulation—Gross mismanagement—Gross
 waste of funds—Abuse of authority—A substantial and specific danger to public health
                                          or safety.

                       WHAT IS WHISTLEBLOWER RETALIATION?
 A federal employee authorized to take, or direct others to take, recommend or approve
 any personnel action may not take, fail to take, or threaten to take any personnel action
   against an employee because of protected whistleblowing. You may file a protected
disclosure and/or file a whistleblower retaliation complaint with the U.S. Office of Special
    Counsel (OSC). Forms may be filed online or downloaded from OSC’s website at
 www.osc.gov or you may contact OSC at: U.S. Office of Special Counsel 1730 M Street,
    N.W., Suite 218, Washington, DC 20036; Retaliation Information: 1-800-872-9855,
                   Whistleblower Disclosure Hotline: 1-800-572-2249.

           WHAT IS A WHISTLEBLOWER PROTECTION OMBUDSMAN?
 We educate employees about the rights and remedies available to them under the laws
                       prohibiting whistleblower retaliation.

                     HOW DO I CONTACT THE OMBUDSMAN?
                    Email us at whistleblower.ombudsman@ssa.gov
                                 Or visit our website at
                   http://oig.ssa.gov/whistleblower-protection
